_______
HERBERT H. SLATERY III,
Attorney General and Reporter of the State of Tennessee, et al.,
Applicants,
v.
BRISTOL REGIONAL WOMEN’S CENTER, P.C., et al.,
Respondents.
_______
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that on April 15, 2021, I caused to be served an original and one copy of Response in
Opposition to Application for Stay of the Judgment and Injunction Issued by the United States District Court for
the Middle District of Tennessee delivered to the U.S. Supreme Court electronically and via FedEx overnight
courier service, and one copy was served electronically and via FedEx overnight courier service on the following
counsel:
SARAH K. CAMPBELL
P.O. Box 20207
Nashville, TN 37202
(615) 532-6026
Counsel of Record

The following email addresses have also been served electronically:
sarah.campbell@ag.tn.gov
/s/ Jason M. Moff
JASON M. MOFF
KRAMER LEVIN NAFTALIS & FRANKEL LLP
1177 Avenue of the Americas
New York, NY 10036

KL3 3336166.1

